U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 8, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

New York State Republican Committee v. Securities and Exchange
Commission, No. 19-343

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 16,
2019. The government's response is now due, after one extension, on November 18, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including December 6, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0343
NEW YORK REPUBLICAN STATE COMMITTEE
SEC

JASON TORCHfNSKY
HOLTZMAN VOGEL JOSEFIAK TORCHINSKY
PLLC
45 NORTH HILL DRIVE
SUITE 100
WARRENTON, VA 20186
540-341-8808
JTORCHINSKY@HVJT LAW

